                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             The Inspector General
                                                             Washington, D.C. 20230




May 20,2013

The Honorable Lamar Smith
Chairman
Committee on Science, Space and Technology
United States House of Representatives
Washington, DC 205 15-630 I

Dear Mr. Chairman:

This responds to the Committee on Science, Space and Technology's letter of November 15,
2012, in which it was requested we examine issues related to the Department of Commerce's
(DOC) use of personal and/or alias email accounts to conduct official government business.
Pursuant to your request, we conducted an inquiry focused on the following:

   a) Whether it is possible to determine the extent personal email accounts are used by
      DOC employees to conduct official business.
   b) Whether DOC has procedures in place to collect, maintain, and access records created
      by personal or alias email accounts.
   c) Whether DOC has provided appropriate training for staff related to the use of personal
      or alias email accounts.
   d) Whether DOC has reprimanded, counseled, or taken administrative action against any
      employees for using personal or alias email accounts.
   e) Whether DOC officials have promoted or encouraged the use of personal or alias
      emails for conducting official government business.

For the purposes of this inquiry, "personal email account" is defined as an account established
with a commercial internet service provider such as Yahoo!, Gmail, or Hotmail. "Unofficial
alias email account" is defined as a DOC email account where the name or position of the
account holder is not readily apparent. "Official alias account" is defined as a DOC established
email account with a clearly identifiable account holder or purpose, such as one using an
individual account holder's title or a group account holder's function.

In the course of our inquiry, which focused on the Office of the Secretary (OS), National
Oceanic and Atmospheric Administration (NOAA), and the National Institute of Standards and
Technology.(NIST), we examined various policies and procedures. We also interviewed senior
leadership within the Department including: the Acting Secretary of Commerce, the Under
Secretary of Commerce for Standards and Technology and NIST Director, the then-Under
Secretary of Commerce for Oceans and Atmosphere and National Oceanic and Atmospheric
Administration (NOAA) Administrator, and the Assistant Secretary of Commerce/Deputy
Administrator of NOAA (current Acting NOAA Administrator).
                                                                                                                    2


In addition, we interviewed the DOC Chief Information Officer (CIO) and other relevant CIO
staff from the Department, NIST, and NOAA. We also reviewed relevant training materials
and information pertaining to personnel action resulting from the use of personal or alias email
to conduct official business.

Our findings and recommendations are presented below. We are also transmitting these
results to the DOC CIO for action and response, as well as to the Acting Secretary of
Commerce.

a. The extent to which personal email accounts are used by DOC employees to conduct
   official business could not be determined.

We were unable to determine the extent of personal email use by DOC employees to conduct
official business because DOC does not have the technology, policies, or procedures in place to
provide this information.

b. Current DOC policy and procedures regarding the use of personal or alias email
   accounts for official business is only found in a ''Remote Access Policy, and, ·therefore,
   is not interpreted as a blanket policy.

DOC presently lacks a comprehensive, Department-wide policy prohibiting the use of personal
email to conduct official government business. The policies currently in place do not address all
circumstances of use of personal email to conduct official business. In addition, DOC, including
NIST and NOAA, does not have any policy regarding unofficial alias email accounts. The
Commerce Interim Technical Requirements (CITR)-008: Remote Access Policy, states,

           "When working from a remote location, only DOC-authorized e-mail accounts must be
           utilized to conduct official business on behalf of the Department. Personal e-mail
           accounts (e.g. Hotmail, Yahoo, or Gmail) must not be used to conduct official business."

In addition to this policy, DOC requires all users of network services in the Office of the
Secretary (OS) 1 to read and sign an "OS Network Rules of Behavior" agreement which states,
~~I   may not use personal e-mail (e.g. yahoo, gmail, etc... ) to send official DOC business information."
Per the DOC CIO, users are not granted access to the OS network until this document is read
and signed.

While DOC CIO policy (such as the CITR-008) applies to all DOC operating units and
bureaus, DOC operating units and bureaus can also implement more stringent policies. For
example, NIST has an "IT Resources, Access and Use Policy" that prohibits ~~sending personal
email that might be construed by the recipient to be an official communication." NIST's "Automatic
Email Forwarding Use Policy" prohibits automatic forwarding of email from an employee's NIST

1
 This requirement applies to the following OS operating units: Office of Business Liaison, Center for Faith Based
and Neighborhood Partnerships, Native American Affairs, Office of the Chief Financial Officer and Assistant
Secretary for Administration, Office of the Chief Information Officer, Office of the Executive Secretariat, Office of
General Counsel, Office of Legislative and Intergovernmental Affairs, Office of Policy and Strategic Planning, and
Office of Public Affairs.
                                                                                                    3


 email account.to andther email account. If an exception is granted under this particular policy,
 storage is required for those emails on NIST's server.

 The DOC CIO stated his office is drafting a formal DOC-wide policy memorandum referencing
 the existing DOC policies outlined above and incorporating additional language clearly
 forbidding the use of personal email accounts for official business. He stated that during
 Quarter 3, Fiscal Year 20 13, DOC plans to release an enterprise-wide DOC Acceptable Use
 Policy/CITR which will incorporate the proposed policy memorandum and expand on related
 issues, such as prohibiting the forwarding of DOC email to a personal device (e.g., personal
 smartphone).

 As stated in section a. above, DOC does not have technology, policies, or procedures in place
 to identify, collect, maintain, or access personal email accounts used to conduct official business.

 c. There is a lack of consistent, adequate training regarding the use of personal or alias
    email accounts for official business.

 Because there is not a comprehensive policy regarding the use of personal or alias email
 accounts for official business, we found a corresponding lack of consistent and adequate training
 within the Department. The DOC CIO reported that the training provided by his· office does
 not address the use of personal or alias email accounts for official business. DOC Office of
 Human Resources confirmed that there is no formal training on this issue.

 Per the NOAA CIO, the NOAA annual IT Security Awareness training previously included
 statements regarding the inappropriateness of employees using personal email accounts for
 official business in a Records Management module. However, NOAA currently does not
 incorporate this particular statement in its training. According to the NOAA CIO, the Records
 Management module was removed in 20 I0 in order to keep the training to a certain length.

 d. We identified no record of adverse personnel action resulting from the use of personal
    or unofficial alias email accounts for official business.

 We requested from the DOC Office of Human Resources (in coordination with the Office of
 General Counsel and bureau human resource offices) all records related to any adverse
 personnel action taken against an employee for using personal email or unofficial alias email
·accounts to conduct official business. Based on its query, the DOC Office of Human Resources
 reported that it did not locate any records of adverse personnel actions taken because of the
 use of personal or unofficial alias email accounts to conduct official business for the bureaus it
 services, including: the Office of the Secretary, Bureau of Industry and Security, Economic
 Development Administration, International Trade Administration, Minority Business
 Development Agency, and National Telecommunications and Information Administration. NIST
 and NOAA· also reported they did not locate any records of adverse personnel actions taken
 because of the use of personal or unofficial alias email accounts to conduct official business.

 Based on our review of OIG investigative records, we identified a case where an Economic 

 Development Administration (EDA) employee used his personal email account to conduct 

                                                                                                 4


official business. The investigation focused on potential conflicts of interest and appearances of
preferential treatment for EDA grantees the employee oversaw. During the investigation, OIG
found the employee regularly used his personal email account for EDA official business. In June
2012, we transmitted our report to EDA including that and other findings. We recommended
that EDA implement a policy prohibiting employees from using personal email accounts to
conduct official business; however, EDA did not address this recommendation in its response
dated September 25., 20 12. EDA ultimately issued a memorandum to the employee advising him
to not use his personal email to conduct official business.

e. Senior DOC officials have not encouraged the use of personal or unofficial alias email
   for official business, and have not used personal or unofficial alias email for official
   business except for incidental instances.

None of the DOC officials we interviewed were aware of any DOC official promoting or
encouraging the use of personal or unofficial alias email accounts to conduct official business.
Except for incidental instances, the Acting Secretary; the Under Secretary of Commerce for
Standards and Technology and NIST Director; the then-Under Secretary of Commerce for
Oceans and Atmosphere and NOAA Administrator; and the Assistant Secretary of
Commerce/Deputy Administrator of NOAA (current Acting NOAA Administrator) all stated
they have not used their personal email to conduct official business. As stated below, former
Under Secretary of Commerce for Oceans and Atmosphere and NOAA Administrator stated
she had a general awareness of a practice by some employees to sometimes use their personal
email accounts for official business out of convenience, but that they would copy their official
account when doing so.

    I. 	 The Acting Secretary informed us that she used her personal email account once on a
         Saturday after not being able to connect to the DOC email server. She stated the email
         content consisted of a request to a staff member to schedule a meeting with her first
         thing on the following Monday morning.

    2. 	 The Assistant Secretary of Commerce/Deputy Administrator of NOAA (current Acting
         NOAA Administrator) identified five emails with a representative from the academic
         community, with whom she had a long-standing professional relationship, based on a
         search of her personal email account that discussed NOAA-related matters. We
         reviewed these emails and determined they were not substantive in nature. The emails
         consisted of forwards of academic articles, discussions, and presentations of potential
         interests involving weather, a string of emails while she was out of town as to what
         phone number was best to reach her on to discuss official business, and an email with a
         subject line only "eager to see draft declaration." The last was related to a Weather­
         Ready Nation community dialog, "Sense of Attendees" declaration that came out of the
         dialog.

    3. 	 The former Under Secretary of Commerce for Oceans and Atmosphere and NOAA
         Administrator stated she was not aware of anyone in DOC or NOAA using personal or
         alias email accounts for official government business, unless they copied their official
         NOAA account. She stated as a matter of convenience some NOAA employees email
                                                                                                 5


       from home on their personal accounts regarding NOAA business, and copy their
       NOAA accounts anytime they do so. She stated she did not know how widespread this
       practice was, and she could not recall anyone specifically doing it. She stated she did
       not know if this practice was acceptable under NOAA policy.

With regard to unofficial alias email accounts, none of the officials we interviewed were aware
of any used to conduct official business. Most mentioned official alias email accounts known to
them. The Acting Secretary stated she was aware of an email address used by the DOC
Executive Secretariat, the office responsible for controlled correspondence,
The_Secretary@doc.gov, to send and receive emails. She stated this is the only official alias
email account she is aware of, and she does not have access to the account. The DOC CIO and
staff stated they were aware of two official alias email accounts: (I) the DOC CIO has a
DOCCIO@doc.gov account for email from the general public, and (2) the Secretary has a
The_Secretary@doc.gov account. The DOC CIO stated he is unaware of any unofficial alias
email accounts.

The NIST Director stated he was aware of an official alias email account at NIST,
Director@nist.gov. He stated the account is maintained so a change in leadership does not
disrupt an email address used for public inquiry. He stated he has no access to this account,
but his Chief of Staff monitors and screens the account for any relevant emails. The NIST CIO
and staff stated that NIST creates group accounts for functional use (e.g., a group email account
for a project team to use). The N 1ST CIO stated, to his knowledge, alias or group email
accounts have never been created for someone using a name different from that of the actual
user and/or position.

The then-Under Secretary of Commerce for Oceans and Atmosphere and NOAA
Administrator stated when she began at NOAA she was inundated with emails to her direct
NOAA account, so an account was set up within that account using an abbreviation of her
official account address with the idea that high priority emails would go to the subaccount
within her broader account. She stated this subaccount did not help her and was ultimately
abandoned.

The NOAA CIO stated the NOAA Administrator had an alternate NOAA email account, with
a variation of her name, but it was linked to her official account (i.e., both email addresses were
sent to the same Outlook in box). The NOAA CIO stated he was not aware of any unofficial
alias email accounts.

Recommendations

To ensure proper records management of all emails containing official business, and to facilitate
transparency and oversight, we intend to recommend by separate communication that the
DOC CIO, in coordination with DOC operating unit/bureau CIOs, take the following actions:

I. Finalize the pending policy revision to ensure the Department has a clear, comprehensive 

   policy prohibiting the use of personal email for conducting official business. 

                                                                                                6


2. Communicate DOC policies regarding the use of personal emails to all DOC employees,
   e.g., via initial and annual refresher IT training presentations.

An identical copy of this letter has been sent to each signatory of the Committee's November
15, 20 12 letter and the Ranking Subcommittee Members.

If I can answer any questions or be of further assistance, please feel free to contact me or David
Smith, Deputy Inspector General, at 202-482-4661.

Sincerely,


~~3--c.,.....­
Todd J. Zinser

cc: 	 Dr. Rebecca Blank, Acting Secretary
     Cameron Kerry, General Counsel
     Dr. Kathryn Sullivan, Acting Under Secretary of Commerce for Oceans and Atmosphere
     and Acting NOAA Administrator
     Dr. Patrick Gallagher, Under Secretary of Commerce for Standards and Technology and
     NIST Director
     Simon Szykman, DOC CIO
